APPENDIX

TABLE OF APPENDICES
Appendix A
Opinion of the U.S. Court of Appeals for the
Third Circuit, Fischer v. Governor of New
Jersey, 842 Fed. Appx. 741 (Jan. 15, 2021) ..... App.2
Appendix B
Opinion of the U.S. District Court for the District
District of New Jersey, Fischer v. Phil Murphy,
425 F. Supp. 3d 366 (Nov. 27, 2019) .............. App.35
Appendix C
Order of the U.S. District Court for the District
District of New Jersey, Fischer v. Phil Murphy,
425 F. Supp. 3d 366 (Nov. 27, 2019) .............. App.58
Appendix D
U.S. Const., amend I ...................................... App.60
New Jersey Statute Annotated Section
52:14-15.9e, as amended by P.L. 2018,
c. 15, § 6, eff. May 18, 2018 ............................ App.60

App-2
Appendix A
UNITED STATES COURT OF APPEALS FOR
THE THIRD CIRCUIT
____________
No. 19-3914 and 19-3995
January 15, 2021
____________
SUSAN G. FISCHER; JEANNETTE SPECK, on
behalf of themselves and other similarly situated,
Appellants in Case No. 19-3914
v.
GOVERNOR OF NEW JERSEY; New Jersey
Education Association; Township of Ocean Education
Association
Defendant—Appellee.
___________________________________
ANN SMITH; KARL HEDENBERGER; MELISSA
POULSON; MICHAEL SANDBERG; LEONARDO
SANTIAGO; and RACHEL CURCIO, on behalf of
themselves and others similarly situated,
Appellants in Case No. 19-3995
v.
NEW JERSEY EDUCATION ASSOCIATION;
CLEARVIEW EDUCATION
ASSOCIATION; HARRISON TOWNSHIP
EDUCATION ASSOCIATION;
KINGSWAY EDUCATION ASSOCIATION, as
representatives of the class of all chapters and

App-3
affiliates of the New Jersey Education Association;
NATIONAL EDUCATION ASSOCIATION;
CLEARVIEW REGIONAL HIGH SCHOOL
DISTRICT BOARD OF EDUCATION;
HARRISON TOWNSHIP BOARD OF EDUCATION;
KINGSWAY REGIONAL SCHOOL DISTRICT
BOARD OF EDUCATION, as representatives of the
class of all school boards in New Jersey;
GOVERNOR OF NEW JERSEY;
JOEL M. WEISBLATT; PAUL BOUDREAU; PAULA
B. VOOS; JOHN BONANNI;
DAVID JONES, in their official capacities as
chairman and members of the New Jersey Public
Employment Relations Commission
___________________________________
Appeal from the United States District Court for the
District of New Jersey
D.C. Nos.: 1-18-cv-10381
___________________________________
Before: SHWARTZ, PHIPPS, and FISHER, Circuit
Judges.
____________
OPINION*
____________
SHWARTZ, Circuit Judge.
Plaintiffs are New Jersey public school teachers who
This disposition is not an opinion of the full court and pursuant
to I.O.P. 5.7 does not constitute binding precedent.
*

App-4
paid dues and other fees to the state teachers’ union,
the New Jersey Education Association (“NJEA”).1
Most Plaintiffs notified NJEA that they wished to
disaffiliate from the union and terminate all
payments to it. NJEA allowed Plaintiffs to disaffiliate
and to opt out of the payments, but only after the lapse
of waiting periods set forth in a state statute and/or in
Plaintiffs’ union-membership agreements. Plaintiffs
assert that the waiting periods are unconstitutional
under Janus v. American Federation of State, County,
and Municipal Employees, 138 S. Ct. 2448, 2486
(2018). The District Court disagreed and granted
summary judgment to all Defendants.
Because the District Court correctly concluded that
Plaintiffs lack standing to challenge the statute and
because Janus does not impact their contractual
obligations to the union, we will affirm.
I
A
NJEA represents more than 200,000 public sector
educational institution employees in New Jersey.
Before Janus, these employees were required either to
(1) join NJEA and pay full union dues or (2) abstain
from union membership but still pay a compulsory
Plaintiffs have sued NJEA and several of its affiliates, the
National Education Association, Clearview
Education
Association, Harrison Township Education Association,
Kingsway Education Association, and the Township of Ocean
Education Association. For ease of reference, we will refer to
these entities collectively as NJEA.
1

App-5
agency fee equal to 85 percent of union dues. If an
employee wished to become an NJEA member, he had
to sign NJEA’s Active Membership Application, which
required the prospective member to elect whether to
pay the dues in cash or through automatic payroll
deductions. If the member elected to pay through
automatic payroll deductions—as most members
did—he had to agree that (1) he could revoke his
authorization for the payroll deduction only through
written notice and (2) the revocation would be
effective only as of the January 1 or July 1 following
the revocation notice, whichever was earlier.
In May 2018, while Janus was pending before the
Supreme Court but before it was decided, New Jersey
enacted the Workplace Democracy Enhancement Act
(“WDEA”), N.J. Stat. Ann. § 52:14-15.9e. See 2018
N.J. Sess. L. Serv., ch. 15 § 6 (May 18, 2018)
(amending N.J. Stat. Ann. § 52:14-15.9e). As relevant
here, the WDEA contains two components. First, it
provides that “[e]mployees who have authorized the
payroll deduction of fees to employee organizations,”
such as NJEA, “may revoke such authorization by
providing written notice to [their] public employer
during the 10 days following each anniversary date of
their employment.” N.J. Stat. Ann. § 52:14-15.9e.
Second, it provides that “[a]n employee’s notice of
revocation of authorization for the payroll deduction
of employee organization fees shall be effective on the
30th day after the anniversary date of [the
employee’s] employment.” Id. The WDEA does not
specify how its ten-day notice period and its thirty-day
waiting period interact with the revocation period set

App-6
forth in NJEA’s membership application (which, as
discussed, sets the earlier of January 1 and July 1 as
the effective date for the revocation of payrolldeduction authorization).
On June 27, 2018, following passage of the WDEA,
the Supreme Court decided Janus, 138 S. Ct. at 2448.
Janus struck down a state statute that had required
public-sector employees either to join a union or, if
they did not wish to join the union, to pay the union
an agency fee. Id. at 2486. The Court held that the
statute violated the First Amendment by compelling
the nonmember employees to subsidize the union’s
speech without their consent. Id. In the Court’s view,
“[n]either an agency fee nor any other payment to the
union may be deducted from a nonmember’s wages,
nor may any other attempt be made to collect such a
payment, unless the employee affirmatively consents
to pay,” that is, unless the nonmember provides a
“freely given” waiver of his First Amendment rights.
Id. Plaintiffs contend that Janus renders the WDEA
and the effective-date provisions of their membership
agreements unconstitutional.
B
Plaintiffs in the Fischer action, Susan Fischer and
Jeanette Speck (“Fischer Plaintiffs”), joined NJEA on
August 27, 1999 and August 30, 2001, respectively.
Upon joining, they signed their NJEA membership
applications, electing to pay union dues through
automatic payroll deductions. As discussed above, by
signing the applications, the Fischer Plaintiffs agreed
that they could revoke their authorization for

App-7
automatic payroll deductions only in writing and only
with an effective date of the earlier of January 1 or
July 1 following their revocation notice. Following
Janus, the Fischer Plaintiffs resigned their union
membership in written notices dated July 17 and 23,
2018, that stated that they wished to terminate their
membership “immediately” and that they “no longer
wish[ed] to pay dues or fees to the union.” Fischer
App. 67-68, 83-84.
The Fischer Plaintiffs contend that their employer,
the Township of Ocean Board of Education
(“TOBOE”), informed them that they could not yet
terminate the deductions of dues payments from their
paychecks because the WDEA permitted them to give
notice of their termination only within a ten-day
window following the anniversary date of their
employment. WDEA, N.J. Stat. Ann. § 52:14-15.9e.
NJEA, however, accepted the Fischer Plaintiffs’ July
2018 resignation notices, consistent with NJEA’s
policy at that time of “accept[ing] revocation requests
at any time during the year” without “reject[ing] or
refus[ing] to honor those requests because they were
not submitted during the 10 days following the
employee’s anniversary date of hire.” Fischer App. 119
¶ 16, 156 ¶ 10, 157 ¶ 11. NJEA continued to withdraw
dues from the Fischer Plaintiffs’ paychecks until
September 30, 2018, or approximately thirty days
following the anniversary dates of their employment.
C
Plaintiffs in the Smith action, Melissa Poulson,
Michael Sandberg, Leonardo Santiago, and Rachel

App-8
Curcio (“Smith Plaintiffs”),2 were also NJEA
members.3 Like the Fischer Plaintiffs, the Smith
Plaintiffs
signed
membership
applications
authorizing the automatic deduction of union dues
from their paychecks and agreed that the deductions
could be terminated only by written notice and only
on the earlier of January 1 or July 1 following such
notice.
Following Janus, Poulson, Sandberg, and Santiago
each resigned their memberships with NJEA and
demanded NJEA halt the deduction of union dues.
Poulson was treated as having resigned from NJEA
on July 24, 2018.4 Sandberg and Santiago emailed
notice of their resignations on June 28 and August 8,
2018, respectively. Smith App. 40-42, 58 ¶ 39, 59-60
¶ 44. Despite their resignations, NJEA continued
The Smith Plaintiffs concede that the claims brought by two
nonmember employees of New Jersey public schools, Ann Smith
and Karl Hedenberg, are barred by Diamond v. Pa. State Educ.
Ass’n, 972 F.3d 262 (3d Cir. 2020), and we will therefore affirm
the dismissal of these claims.
2

Poulson, Sandberg, and Santiago began their employment with
the public school system on September 1, 2003, August 26, 2002,
and September 1, 2000, respectively. Curcio began her
employment on September 6, 2017.
3

Poulson telephoned her resignation on June 28, 2018, however,
NJEA did not deem this notice of resignation effective because it
was not in writing. Defendants deemed Poulson’s addition as a
plaintiff in the Smith case on July 24, 2018 as constituting
“written notice of [Poulson’s] resignation and revocation of dues
authorization.” Smith Governor’s Br. at 10.
4

App-9
deducting dues from Poulson, Sandberg, and Santiago
until September 30, 2018, which was approximately
thirty days following the anniversary dates of their
employment.5 Curcio did not make any attempt to
resign from the union and continues to pay union
dues.
The Fischer Plaintiffs and the Smith Plaintiffs sued
the state governor and NJEA on behalf of putative
classes under 42 U.S.C. § 1983,6 alleging that
Defendants violated Janus by collecting union dues
from them without their consent and after they
indicated that they wished to terminate all such
payments and seeking: (1) a declaratory judgment
that the WDEA and Defendants’ revocation practices
are unconstitutional, (2) an injunction prohibiting
Defendants from enforcing that statute and those
practices, and (3) monetary damages for the dues that
they paid after they submitted their resignation
Defendants concede that Sandberg’s revocation notice and
concurrent termination of the withdrawal of union dues should
have been effective on July 1, 2018. They assert that dues were
withdrawn from Sandberg’s paycheck through September 2018
because of an administrative error. NJEA provided Sandberg
with a refund for the dues that he paid between July 2018 and
September 2018 but Sandberg has refused to accept it.
5

The Smith Plaintiffs do not challenge the dismissal of their
claims against Clearview Regional High School District Board of
Education, Harrison Township Board of Education, and
Kingsway Regional School District Board of Education, and four
members of the New Jersey Public Employment Relations
Commission, Joel M. Weisblatt, Paul Boudreau, Paula B. Voos,
John Bonanni, and David Jones.
6

App-10
notices.
D
Following targeted discovery, the parties crossmoved for summary judgment. The District Court
denied Plaintiffs’ motions, granted Defendants’
motions, and dismissed the case. The Court held that
Plaintiffs lacked Article III standing to challenge the
WDEA because (1) its ten-day notice requirement
“was not enforced against Plaintiffs as written,”
Fischer App. 23, and (2) its thirty-day effective date
permitted Plaintiffs “to resign their union
memberships earlier than they otherwise would have
been entitled to” under their membership agreements,
Fischer App. 24, and so the statute did not cause
Plaintiffs any injury.7 The District Court also rejected
Plaintiffs’ argument that Janus requires public-sector
unions to obtain waivers of their First Amendment
rights before collecting dues from members. The Court
held that “Plaintiffs have a right to resign from the
union and cease paying union dues, but Janus does
not serve to invalidate [their] previously signed”
membership agreements or, concurrently, the
restrictions in those agreements relating to the
effective date of a membership-resignation notice.
Fischer App. 21; see also id. at 22 (“Plaintiffs ... may
freely resign from the union, but they must do so
under the terms of the Union Dues Authorization
Forms.”).
The District Court stated in dicta that if Plaintiffs had standing
to challenge the WDEA, the statute’s ten-day notice provision
would likely be unconstitutional.
7

App-11
Plaintiffs appeal.
II8
A
We first address Plaintiffs’ standing to challenge the
WDEA. Because we have jurisdiction to decide only
“Cases” and “Controversies,” U.S. Const., Art. III, § 2,
we may only decide cases brought by plaintiffs with
standing, Susan B. Anthony List v. Driehaus, 573
U.S. 149, 157 (2014). “To establish Article III
standing, a plaintiff must show (1) an ‘injury in fact,’
(2) a sufficient ‘causal connection between the injury
and the conduct complained of,’ and (3) a ‘likel[ihood]’
that the injury ‘will be redressed by a favorable
decision.’ ” Id. at 157-58, 134 S.Ct. 2334 (quoting
Lujan v. Defs. of Wildlife, 504 U.S. 555, 560-61
(1992)).
Plaintiffs bear the burden to prove each element of
Article III standing. Driehaus, 573 U.S. at 158,.
Apart from the standing issues discussed herein, the District
Court had subject matter jurisdiction under 28 U.S.C. § 1331. We
have appellate jurisdiction under 28 U.S.C. § 1291. “We exercise
plenary review over a district court’s grant of summary
judgment,” Chavarriaga v. N.J. Dep’t of Corr., 806 F.3d 210, 218
(3d Cir. 2015), including any “legal questions about a party’s
standing to sue and the constitutionality of federal laws,” Free
Speech Coal., Inc. v. Att’y Gen., 974 F.3d 408, 419 (3d Cir. 2020).
In reviewing motions for summary judgment, we apply the same
standard as the District Court, viewing all facts and drawing all
reasonable inferences in the non-movant’s favor. Hugh v. Butler
Cty. Family YMCA, 418 F.3d 265, 266-67 (3d Cir. 2005).
Summary judgment is appropriate when “there is no genuine
dispute as to any material fact and the movant is entitled to
judgment as a matter of law.” Fed. R. Civ. P. 56(a).
8

App-12
Additionally, Plaintiffs “‘must demonstrate standing
for each claim [they] seek [ ] to press’ and ‘for each
form of relief’ that is sought.” Davis, 554 U.S. at 734
(quoting DaimlerChrysler Corp. v. Cuno, 547 U.S.
332, 352 (2006)). Because Plaintiffs have brought
class actions, the standing requirements “must be
satisfied by at least one named plaintiff.” McNair v.
Synapse Grp. Inc., 672 F.3d 213, 223 (3d Cir. 2012).
Where, as here, we review motions for summary
judgment, the Plaintiffs may not “rest on ... ‘mere
allegations,’ but must ‘set forth’ by affidavit or other
evidence ‘specific facts’ ” establishing standing.
Clapper, 568 U.S. at 412 (omission in original)
(quoting Lujan, 504 U.S. at 561).
We will examine Plaintiffs’ standing to challenge the
WDEA in two parts: first, their standing to challenge
the provision relating to the ten-day notice period and,
second, their standing to challenge the provision
relating to the thirty-day waiting period.9
In this section, we address whether the Fischer Plaintiffs as
well as Plaintiffs Poulson, Sandberg, and Santiago have standing
to challenge the WDEA. We examine Curcio’s standing
separately because it fails for reasons different from those of the
other Plaintiffs. Curcio remains an NJEA member and has not
tried to resign from the union or revoke her authorization for the
automatic deduction of dues from her paycheck. Because the
WDEA sets forth a procedure only for those resigning from NJEA
and terminating payroll deductions, see N.J. Stat. Ann. § 52:1415.9e, she cannot show that the statute caused her any financial
injury. Moreover, she has expressed ambivalence about whether
she will resign her membership in the future, and thus cannot
establish an imminent threat that the WDEA will be enforced
against her as Article III requires.
9

App-13
1
Plaintiffs lack standing to challenge the WDEA’s
ten-day notice period. The WDEA permits public
employees to revoke their authorization for the
payroll deduction of their union dues during an
annual ten-day period following the anniversary dates
of their employment. See N.J. Stat. Ann. § 52:14-15.9e
(“Employees who have authorized the payroll
deduction of fees to employee organizations may
revoke such authorization by providing written notice
to their public employer during the 10 days following
each anniversary date of their employment.”).
The anniversary dates of the employment of
Plaintiffs Poulson, Sandberg, and Santiago were in
late August and early September, placing their tenday notice periods in early to late September.
However, NJEA permitted these Plaintiffs to
terminate their union affiliation based on notices that
they submitted in June and July 2018—long before
their statutory ten-day periods. Thus, the ten-day
period had no impact on Plaintiffs. Put differently, to
Curcio asserts that the uncertainty about whether the WDEA
will be enforced by its terms constitutes an “informational
injury,” but this argument fails. Courts have limited the
“informational injury” doctrine to information that is required by
law to be disclosed. See, e.g., F.E.C. v. Akins, 524 U.S. 11, 118
S.Ct. 1777, 141 L.Ed.2d 10 (1998); Carello v. Aurora Policemen
Credit Union, 930 F.3d 830, 835 (7th Cir. 2019); Nader v. F.E.C.,
725 F.3d 226, 229 (D.C. Cir. 2013). We need not define the precise
contours of the “informational injury” doctrine here; it suffices to
say that Curcio’s claim does not qualify because the challenged
statute does not require the disclosure of information.

App-14
the extent that these Plaintiffs have suffered any
financial injury, the ten-day notice provision of the
WDEA was not the cause of it. They therefore lack
standing to recover damages as part of their statutory
challenge.
Poulson, Sandberg, and Santiago also lack standing
to seek injunctive relief against enforcement of the
ten-day notice requirement because, at the time that
their complaint was filed, there was no imminent and
certain risk that the ten-day requirement would be
enforced against them. To establish an injury-in-fact
based on the future enforcement of a statute, a
plaintiff must show that “there exists a credible threat
of prosecution” under that statute. Driehaus, 573 U.S.
at 159. Poulson, Sandberg, and Santiago offer no
evidence of a risk that the ten-day requirement would
be enforced against them other than the
unremarkable fact that the statute was in effect on
the date that they filed their complaint. The mere
presence of a statute on the law books, standing alone,
is insufficient to show a “credible threat” that the
statute will be enforced against a particular plaintiff.
Id. Plaintiffs must do more to establish standing
based on a threat of future enforcement. See, e.g.,
Driehaus, 573 U.S. at 160, 163-64 (plaintiffs
established credible threat of future enforcement
proceeding based on the statute’s “history of past
enforcement,” the fact that “any person” can
commence such a proceeding, and the fact that such
proceedings “are not a rare occurrence”). Poulson,
Sandberg, and Santiago’s failure to offer any evidence
establishing a credible threat of enforcement is fatal

App-15
to their challenge to the ten-day notice provision.10
The Fischer Plaintiffs also lack standing to
challenge the ten-day notice period. Although
nonparty TOBOE informed the Fischer Plaintiffs that
they could revoke their dues authorizations only
during the ten-day window set forth in the WDEA,
NJEA offers undisputed evidence that it accepted and
processed the Fischer Plaintiffs’ July 2018 revocation
notices—even though those notices were submitted
earlier than the ten-day notice period—consistent
with union policy. The Fischer Plaintiffs have offered
no evidence that NJEA or the Governor were
responsible for TOBOE’s communications or that
Defendants otherwise intended or threatened to
enforce the ten-day notice requirement against them.
See Lujan, 504 U.S. at 561 (requiring plaintiffs at the
summary judgment stage to come forward with
evidence of “specific facts” establishing standing).
Thus, the Fischer Plaintiffs have not shown that
Defendants enforced (or threatened to enforce) the
ten-day
notice
requirement
against
them.
Accordingly, the Fischer Plaintiffs lack standing to
challenge this portion of the WDEA. Cf. Matter of
Christopher Columbus, LLC, 872 F.3d 130, 132 n.3
(3d Cir. 2017) (relying on “the undisputed facts drawn
from the summary judgment record” to determine
Because Poulson, Sandberg, and Santiago lack standing to
challenge the ten-day notice period, we need not address whether
their claims are moot. Already, LLC v. Nike, Inc., 568 U.S. 85,
91-92, 133 S.Ct. 721, 184 L.Ed.2d 553 (2013) (distinguishing
between standing and mootness); Hartnett v. Pa. State Educ.
Ass’n, 963 F.3d 301, 305-06 (3d Cir. 2020) (same).
10

App-16
whether subject matter jurisdiction exists).
2
Plaintiffs also lack standing to challenge the
WDEA’s requirement that an employee wait until “the
30th day after [his] anniversary date of employment”
before his dues-authorization revocation will be
effective. N.J. Stat. Ann. § 52:14-15.9e.
As to the Fischer Plaintiffs and two of the Smith
Plaintiffs, Poulson and Santiago, it is undisputed that
the thirty-day waiting-period requirement was
enforced against these Plaintiffs: they all notified
NJEA in July or August 2018 that they wished to
terminate all dues payments to the union, but the
union continued to deduct dues from their paychecks
until September 30, 2018, which was approximately
thirty days after the anniversary dates of their
employment. Critically, however, these Plaintiffs still
would not have been permitted to terminate their
union dues on an immediate basis had the WDEA not
been enacted. Rather, absent the statute, they would
have been bound by the effective dates set forth in
their membership agreements (i.e., the earlier of
January 1 or July 1 following their termination
notices). Because these Plaintiffs all submitted
written notice of their intent to terminate after July
1, 2018, the earliest their membership agreements
would have permitted them to stop paying dues
absent the WDEA would have been January 1, 2019.
The WDEA, in contrast, allowed these Plaintiffs to
terminate the payment of union dues on September
30, 2018—three months earlier than what would have

App-17
been possible under their membership agreements
standing alone. Effectively, the statute’s thirty-day
provision saved the Plaintiffs from paying three
months of unwanted union dues.
That the WDEA’s thirty-day provision conferred a
benefit on the Fischer Plaintiffs, Poulson, and
Santiago renders them unable to establish the
causation element of Article III standing. The
causation element “requires, at a minimum, that the
defendant’s purported misconduct was a ‘but for’
cause of the plaintiff’s injury.” Finkelman v. Nat’l
Football League, 810 F.3d 187, 198 (3d Cir. 2016); see
also Mielo v. Steak ‘n Shake Operations, Inc., 897 F.3d
467, 481 (3d Cir. 2018); Env’t Texas Citizen Lobby,
Inc. v. ExxonMobil Corp., 968 F.3d 357, 377 (5th Cir.
2020) (Oldham, J., concurring) (collecting cases), as
revised (Aug. 3, 2020). Here, we cannot say that “but
for” the Defendants’ alleged misconduct (their
enforcement of the WDEA’s thirty-day provision)
these Plaintiffs would not have suffered the injury of
which they complain (the payment of union dues
following their attempt to terminate their affiliation
with NJEA). To the contrary, absent enforcement of
the WDEA’s thirty-day provision, these Plaintiffs
would have sustained a greater injury because they
would have had to wait three months longer before the
withdrawal of union dues would have stopped. Under
these circumstances, the Fischer Plaintiffs, Poulson,
and Santiago cannot establish that the WDEA’s
thirty-day provision is the cause of their injuries.
For similar reasons, the Fischer Plaintiffs, Poulson,
and Santiago cannot establish redressability. This

App-18
element requires us to ask whether a plaintiff’s injury
would be redressed by a favorable court action. See
Driehaus, 573 U.S. at 158; Toll Bros., Inc. v. Twp. of
Readington, 555 F.3d 131, 142 (3d Cir. 2009). The
remedy sought here, a declaration that the WDEA’s
thirty-day waiting period is unconstitutional and an
injunction against Defendants enforcing it, would not
redress these Plaintiffs’ injuries. As discussed,
invalidation of the statute would leave these Plaintiffs
bound by the effective date in their respective
membership agreements, each of which requires them
to pay union dues for a longer period than required
under the WDEA. Because a favorable judicial
decision would not reduce Plaintiffs’ injuries, these
Plaintiffs cannot establish redressability. See 15
Moore’s Federal Practice: Civil § 101.42 (2020) (“[T]he
redressability element [of Article III standing] is not
satisfied if a favorable result would eliminate one of
multiple causes of an injury without actually
decreasing the injury at all.”).11 We hold, therefore,
By way of analogy, other courts have held that redressability
is not satisfied when a plaintiff challenges a statute whose
prohibitions are embodied in another law that would remain in
effect even if the plaintiff received the relief he sought. See
Kaspersky Lab, Inc. v. United States Dep’t of Homeland Sec., 909
F.3d 446, 465 (D.C. Cir. 2018) (holding that plaintiffs failed to
establish standing to challenge an agency directive where a
separate federal statute “prohibit[ed] all the same conduct as the
[d]irective”; “even if ... the Court were to order the rescission of
the [directive], [the plaintiff’s] harms would not be redressed”);
Delta Constr. Co. v. E.P.A., 783 F.3d 1291, 1296-97 (D.C. Cir.
2015) (holding that plaintiffs failed to establish causation and
redressability where they challenged an agency’s regulation but
11

App-19
that the Fischer Plaintiffs, Poulson, and Santiago lack
standing to challenge the thirty-day waiting period in
the WDEA.12
another agency had a “substantially identical” regulation in
effect; “[b]ecause a separate action—[the non-challenged
regulations]—independently causes the same alleged harm as
the challenged action, the [plaintiffs] are unable to establish the
‘necessary causal connection’ between the [challenged
regulations] and their purported injury”); White v. United
States, 601 F.3d 545, 552 (6th Cir. 2010) (holding that plaintiffs
lacked standing to challenge a federal statute prohibiting
conduct that was also “banned to a greater or lesser degree” in
the laws of “all fifty states and the District of Columbia”; the
plaintiffs’ injuries would not be “redressed by the relief [they]
seek, since the states’ prohibitions ... would remain in place
notwithstanding any action [the Court] might take in regard to
the [federal statute]”). Both here and in these cases, a favorable
decision would eliminate only one cause of the Plaintiffs’ injuries,
while leaving in place another, independent cause of the same
injuries.
Our concurring colleague finds flaws in our standing analysis,
but we think the analysis comports with the precedent. First, we
know that the standing and merits analysis are different.
Second, we recognize that “but for” causation is just one means
of satisfying standing’s causation requirement. Third, our views
likely diverge from his because we conducted the analysis
mindful that we are obligated to examine standing both on a
claim-by-claim basis and based upon the relief sought. See Davis,
554 U.S. at 734, 128 S.Ct. 2759. The concurrence appears to
examine the injury-in-fact component based only on the claim
and does not consider whether Plaintiffs have standing to seek
the particular relief that they want. As we explain, Plaintiffs’
purported injury would continue even if the WDEA were voided.
Thus, their request for a declaration that the WDEA is
unconstitutional would not redress their alleged injury because
12

App-20
Plaintiff Sandberg also lacks standing to challenge
the WDEA’s thirty-day waiting period. Sandberg
notified NJEA on June 28, 2018 that he wished to
revoke his dues authorization. Under his membership
agreement—which allowed employees to terminate
the withdrawal of dues from their paychecks on the
earlier of July 1 or January 1 following notice of
termination—Sandberg should have been permitted
to terminate the withdrawal of dues from his
paycheck on July 1, 2018. Due to an administrative
error, however, NJEA continued withdrawing dues
from Sandberg’s paycheck through September 30,
2018. Sandberg’s injury, therefore, was caused by an
inadvertent processing error, not the WDEA’s thirtyday waiting period. Because Sandberg cannot satisfy
the causation element, he, like his co-Plaintiffs, lacks
standing to challenge this provision of the WDEA.13
For these reasons, we will affirm the District Court’s
holding that Plaintiffs lack Article III standing to
challenge the WDEA.14
their membership agreements would still require them to make
the payments that they contend are unlawful under Janus.
Because Sandberg lacks standing to pursue his claim, we need
not address whether NJEA’s offer to refund him the dues that
were erroneously withdrawn from his paycheck between July
and September 2018 mooted his claim.
14 Given that Plaintiffs lacked standing to bring this claim, the
District Court lacked jurisdiction to opine that it would find that
the ten-day provision in the WDEA unconstitutional if Plaintiffs
had standing to challenge it. See Steel Co. v. Citizens for a Better
Env’t, 523 U.S. 83, 101-02 (1998) (“For a court to pronounce upon
the meaning or the constitutionality of a state or federal law
13

App-21
B
Plaintiffs contend that Janus provides them a right
to terminate their payments to NJEA at any time,
notwithstanding the membership agreements that
they signed, which obligated them to continue paying
dues until a specific date (the earlier of January 1 or
July 1 following notice of resignation).15 Plaintiffs
effectively read Janus as abrogating the commitments
set forth in those agreements. We disagree.
Changes in decisional law, even constitutional law,
do not relieve parties from their pre-existing
contractual obligations. See, e.g., Cohen v. Cowles
Media Co., 501 U.S. 663, 669-70 (1991); Ehrheart v.
Verizon Wireless, 609 F.3d 590, 595-96 (3d Cir. 2010)
(class action settlement agreement); McKeever v.
Warden SCI-Graterford, 486 F.3d 81, 85 (3d Cir. 2007)
(plea agreement); United States v. Lockett, 406 F.3d
207, 212-13 (3d Cir. 2005) (plea agreement); Coltec
Indus. v. Hobgood, 280 F.3d 262, 265, 278 (3d Cir.
2002) (settlement agreement).16 Put succinctly, “a
when it has no jurisdiction to do so is, by very definition, for a
court to act ultra vires.”).
Defendants do not dispute that Plaintiffs have standing to
pursue their challenges to the membership agreements.
15

See also, e.g., Kia Motors Am., Inc. v. Glassman Oldsmobile
Saab Hyundai, Inc., 706 F.3d 733, 738 (6th Cir. 2013) (“[I]t is a
generally accepted rule of construction that ‘changes in the law
subsequent to the execution of a contract are not deemed to
become part of [the] agreement unless its language clearly
indicates such to have been [the] intention of [the] parties.’ ”
16

App-22
party cannot avoid its independent contractual
obligations simply because a change in the law confers
upon it a benefit” after the agreement is signed.
Ehrheart, 609 F.3d at 596. Rather,
[b]y binding oneself [to an agreement,] one
assumes the risk of future changes in
circumstances in light of which one’s bargain
may prove to have been a bad one. That is the
risk inherent in all contracts; they limit the
parties’ ability to take advantage of what may
happen over the period in which the contract is
in effect.
McKeever, 486 F.3d at 89 (quoting United States v.
Bownes, 405 F.3d 634, 636 (7th Cir. 2005)). 17
(quoting 11 Richard A. Lord, Williston on Contracts § 30:23 (4th
ed. 1990)).
In an attempt to distinguish cases holding that intervening
changes in the law do not abrogate pre-existing contractual
obligations, Plaintiffs argue that their membership agreements
with NJEA were not valid and enforceable contracts.
Plaintiffs are incorrect. First, the membership forms make
clear that they are agreements between two parties, the member
and the union. The forms are titled “NJEANEA Active
Membership Application,” Smith App. 35, and set forth annual
dues that are to be paid by the member to the union. As Plaintiffs
conceded to the District Court, a contract need not contain
signatures to be enforceable. See Dkt. 179 at 15 (stating that
Defendants “correctly note[ ] that signatures are not necessary
to form a contract”).
Second, the membership agreements are supported by
consideration. See Seaview Orthopaedics ex rel. Fleming v. Nat’l
Healthcare Resources, Inc., 366 N.J.Super. 501, 841 A.2d 917,
921 (N.J. Super. Ct. App. Div. 2004). NJEA members receive
17

App-23
In the First Amendment context, this principle
applies because the state common law of contracts is
a “law of general applicability” that does not run afoul
of First Amendment principles. Cohen, 501 U.S. at
670, 111 S.Ct. 2513. Put simply, the First Amendment
does not provide a right to “disregard promises that
would otherwise be enforced under state law.” Id. at
672, 111 S.Ct. 2513. Following these principles, a
“swelling chorus of courts” has recognized that “Janus
does not extend a First Amendment right to avoid
paying union dues” when those dues arise out of a
contractual commitment that was signed before Janus
was decided. Belgau v. Inslee, 975 F.3d 940, 944–45
(9th Cir. 2020) (collecting cases).
These principles apply to Plaintiffs’ claims.
Plaintiffs chose to enter into membership agreements
numerous benefits unavailable to nonmembers in exchange for
their payment of dues under the union’s membership
agreements, such as free legal assistance, the right to vote in
union elections and hold positions within the union, and
numerous forms of insurance coverage, retirement programs,
and member discounts. Plaintiffs lost access to these benefits
once they resigned their union memberships.
Third, numerous jurisdictions have concluded that union
membership agreements are enforceable contracts, and
Plaintiffs provide no authority to the contrary. See, e.g., Int’l
Ass’n of Machinists v. Gonzales, 356 U.S. 617, 618 (1958); Fisk
v. Inslee, 759 F. App’x 632 (9th Cir. 2019); Int’l Ass’n of
Machinists Dist. Ten and Local Lodge 873 v. Allen, 904 F.3d 490
(7th Cir. 2018); Shea v. McCarthy, 953 F.2d 29, 30 (2d Cir. 1992);
N.L.R.B. v. U.S. Postal Serv., 827 F.2d 548, 554 (9th Cir. 1987);
N.L.R.B v. U.S. Postal Serv., 833 F.2d 1195, 1196 (6th Cir. 1987).
For these reasons, Plaintiffs’ membership applications are valid
and enforceable contracts.

App-24
with NJEA, rather than abstain from membership
and, instead, pay nonmember agency fees. They did so
in exchange for valuable consideration. By signing the
agreements, Plaintiffs assumed the risk that
subsequent changes in the law could alter the costbenefit balance of their bargain. Because Janus does
not abrogate or supersede Plaintiffs’ contractual
obligations, which arise out of longstanding,
commonlaw principles of “general applicability,”
Cohen, 501 U.S. at 670; see also Belgau, 2020 WL
5541390, at *2, Janus does not give Plaintiffs the right
to terminate their commitments to pay union dues
unless and until those commitments expire under the
plain terms of their membership agreements.18
Therefore, the District Court correctly concluded
that Plaintiffs’ challenge to their membership

Because enforcement of Plaintiffs’ membership agreements
does not violate the First Amendment given that those
agreements are enforceable under laws of general applicability,
see Cohen, 501 U.S. at 670; Belgau, 2020 WL 5541390 at *2, we
reject Plaintiffs’ argument that Defendants were required to
obtain an affirmative First Amendment waiver from Plaintiffs
before deducting union dues from their paychecks. Janus held
that such waivers are required only if a union fee would, absent
the waiver, constitute compelled speech and thereby violate the
First Amendment. 138 S. Ct. at 2486. Given that no First
Amendment violation exists here, no waiver is needed. See
Belgau, 2020 WL 5541390 at *2 (holding that Janus “discussed
constitutional waiver [only] because it concluded that
nonmembers’ First Amendment right had been infringed” and
that the Court “in no way created a new First Amendment waiver
requirement for union members before dues are deducted
pursuant to a voluntary agreement” (emphasis in original)).
18

App-25
agreements fails.
III
For the foregoing reasons, we will affirm the orders
of the District Court.
PHIPPS, Circuit Judge, concurring in part and
concurring in the judgment.
I agree with the Majority’s outcome and much of its
analysis, but I write separately to respectfully
disagree with several aspects of the Majority’s Article
III standing analysis for the former-union-member
plaintiffs (Susan Fischer, Jeanette Speck, Melissa
Poulson, Michael Sandberg, and Leonardo Santiago).
I.
As I see it, those former union members have Article
III standing. They meet the first element (injury in
fact) because they have suffered an actual injury that
is concrete and particularized: the deduction of union
dues from their wages after they gave notice revoking
authorization. See Cottrell v. Alcon Lab’ys, 874 F.3d
154, 163 (3d Cir. 2017) (“[F]inancial harm is a ‘classic’
and ‘paradigmatic form[ ]’ of injury in fact.’ ” (quoting
Danvers Motor Co. v. Ford Motor Co., 432 F.3d 286,
291, 293 (3d Cir. 2005))). See generally Spokeo, Inc. v.
Robins, ––– U.S. ––––, 136 S. Ct. 1540, 1548, 194
L.Ed.2d 635 (2016) (“To establish injury in fact, a
plaintiff must show that he or she suffered ‘an
invasion of a legally protected interest’ that is
‘concrete and particularized’ and ‘actual or imminent,
not conjectural or hypothetical.’” (citation omitted)).

App-26
From that injury in fact, those former union
members seek relief in two respects. First, they sue to
void provisions of their union membership
agreements and to recover union dues deducted from
their wages after they revoked authorization to do so.
Second, they seek injunctive and declaratory relief to
remedy the asserted unconstitutionality of New
Jersey’s Workplace Democracy Enhancement Act
(WDEA). That statute establishes an annual ten-day
period to revoke authorization for deduction of union
dues as well as a single annual effective date for such
revocations. See N.J. Stat. Ann. § 52:14-15.9e (as
amended May 18, 2018).
The first request for relief – related to the
constitutional challenges to the membership
agreements – satisfies the remaining two elements of
Article III standing (fairly-traceable causation and
redressability). The injury may be fairly traced to the
allegedly wrongful conduct (the membership
agreements’ allowance of union-dues wage deductions
after revocation of authorization for those deductions).
Similarly, the relief sought (recovery of those dues)
would redress the injury in fact.19
The Majority reaches the same conclusion but for a different
reason: “Defendants do not dispute that Plaintiffs have standing
to pursue their challenges to the membership agreements.” Maj.
Op. n.15. But see FW/PBS, Inc. v. City of Dallas, 493 U.S. 215,
231(1990) (“The federal courts are under an independent
obligation to examine their own jurisdiction, and standing ‘is
perhaps the most important of [the jurisdictional] doctrines.’ ”
(alteration in original) (quoting Allen v. Wright, 468 U.S. 737,
750 (1984))); Am. Auto Ins. Co. v. Murray, 658 F.3d 311, 319 n.5
19

App-27
My principal disagreement with the Majority
Opinion concerns the former union members’ second
request for relief – as to the constitutionality of two
provisions of the WDEA. The Majority engages in a
but-for-causation analysis and concludes that the
injury in fact (the continued withholding of union
dues) was not caused by the two challenged provisions
of the WDEA (the ten-day annual revocation period
and the single annual effective date for revocations),
but rather by the membership agreements, which
provided for the withholding of dues for a period of
time after revocation. That reasoning rests on a faulty
premise: that causation for purposes of Article III
standing requires but-for causation. Certainly, a
showing of but-for causation suffices to establish
fairly-traceable causation. See, e.g., Mielo v. Steak ’N
Shake Operations, Inc., 897 F.3d 467, 481 (3d Cir.
2018); Finkelman v. Nat’l Football League, 810 F.3d
187, 193 (3d Cir. 2016); Edmonson v. Lincoln Nat’l
Life Ins. Co., 725 F.3d 406, 418 (3d Cir. 2013); Pitt
News v. Fisher, 215 F.3d 354, 360–61 (3d Cir. 2000).
But the Supreme Court has never required but-for
causation to establish Article III causation. To the
contrary, it has admonished against such rigidity. See
Allen v. Wright, 468 U.S. 737, 751(1984) (“[T]he
constitutional component of standing doctrine
incorporates concepts concededly not susceptible of
precise definition.... These terms cannot be defined so
as to make application of the constitutional standing
(3d Cir. 2011) (“[P]arties are
constitutional standing.”).

not

permitted

to

waive

App-28
requirement a mechanical exercise.”). Consistent with
the Supreme Court, this Court has recognized that
but-for causation is not the only means of establishing
fairly-traceable causation. See Khodara Env’t, Inc. v.
Blakey, 376 F.3d 187, 195 (3d Cir. 2004) (Alito, J.)
(“Article III standing demands ‘a causal relationship,’
but neither the Supreme Court nor our Court has ever
held that but-for causation is always needed.”); see
also Const. Party of Pa. v. Aichele, 757 F.3d 347, 366
(3d Cir. 2014) (“[T]here is room for concurrent
causation in the analysis of standing....”); Pub. Int.
Rsch. Grp. of N.J., Inc. v. Powell Duffryn Terminals
Inc., 913 F.2d 64, 72 (3d Cir. 1990) (“The ‘fairly
traceable’ requirement…is not equivalent to a
requirement of tort causation.”). In short, but-for
causation is sufficient to establish fairly-traceable
causation, but it is not necessary. The Majority thus
errs by treating but-for causation as necessary for
fairly-traceable causation.
Much mischief would result if but-for causation were
necessary for Article III standing. For example, a
regulated party would lack standing to challenge a
statute that a regulation parrots or supplements. The
statute would not be a but-for cause of the injury since
the regulation would also cause the injury. Yet no
court has gone that far; and indeed, this Court has
reached the opposite result by permitting challenges
to a statute and to its implementing regulations. See,
e.g., Free Speech Coal., Inc. v. Att’y Gen., 974 F.3d 408,
422–23 (3d Cir. 2020). Closer to home, requiring butfor causation for Article III standing would undermine
aspects of the Majority’s own analysis. If but-for

App-29
causation were required for Article III standing, then
it would be improper for the Majority to reach the
merits of the challenges to the membership
agreements. Because both allegedly unconstitutional
causes (the membership agreements and the WDEA)
would independently bring about the continued
deduction of union dues, neither would operate as a
but-for cause of the allegedly unlawful deductions. By
its own reasoning, then, the Majority should not reach
the merits of the dues-membership-agreement
challenges but should instead dismiss all of the
former union members’ claims for lack of standing. It
does not do so and thus does not fully carry out its
pronouncement that but-for causation is required for
Article III standing.
Rather than base today’s decision on an embedded
contradiction, this case presents a good opportunity to
clarify the causation standard for Article III standing.
If an injury has multiple sufficient causes, then any of
those causes suffices to establish fairly traceable
causation. See Khodara Env’t, 376 F.3d at 194–95
(holding that a plaintiff had standing to seek a
declaratory judgment regarding the validity of a
federal statute where the injury was fairly traceable
to both the statute and an independent state permit
requirement). See generally Restatement (Third) of
Torts § 27 cmt. b (Am. L. Inst. 2010) (“Courts and
scholars have long recognized the problem of
overdetermined harm—harm produced by multiple
sufficient causes—and the inadequacy of the but-for
standard for [that] situation.”). Here, the continued
deduction of union dues from the former union

App-30
employees’ wages resulted from multiple sufficient
causes: the WDEA and the membership agreements.
While challenging either would be enough for fairlytraceable causation (but for not redressability), the
former union members challenge both causes in the
same litigation. In this circumstance, in which neither
cause is “the independent action of some third party
not before the court,” Lujan v. Defs. of Wildlife, 504
U.S. 555, 560 (1992) (citation omitted), the former
union members have satisfied Article III’s fairlytraceable-causation requirement as to both causes.
Accounting for multiple sufficient causes, the former
union members also meet the redressability element
for their challenges to the WDEA. As the Supreme
Court has explained, assessing whether an injury “is
likely to be redressed by a favorable judicial decision,”
Spokeo, 136 S. Ct. at 1547, involves a causation
analysis:
The “fairly traceable” and “redressability”
components of the constitutional standing
inquiry were initially articulated by this Court
as “two facets of a single causation
requirement.” To the extent there is a
difference, it is that the former examines the
causal connection between the assertedly
unlawful conduct and the alleged injury,
whereas the latter examines the causal
connection between the alleged injury and the
judicial relief requested.
Allen, 468 U.S. at 753 n.19 (quoting Charles Alan
Wright, Law of Federal Courts § 13, p. 68 n.43 (4th ed.

App-31
1983)). In the context of multiple sufficient causes,
remedying one cause would not necessarily lead to
redress of the injury, which could still occur due to the
other cause(s). But to avoid the “absurd” conclusion
that no party has standing in the context of multiple
sufficient causes, Khodara Env’t, 376 F.3d at 195, the
redressability analysis focuses on whether “a
favorable judicial decision” would redress the injury
in fact, Spokeo, 136 S. Ct. at 1547. And here, a judicial
decision allowing recovery of union dues would
redress the former union members’ injury. But such a
favorable decision is possible only if both causes of the
continued union-dues deductions (the membership
agreements and the WDEA) are unconstitutional.
Because the remedy requested by the former union
members addresses both of those multiple sufficient
causes, a favorable judicial decision – granting
declaratory or injunctive relief along with monetary
relief – would likely redress their injury.
For these reasons, after accounting for their claims
as well as the relief sought, I believe that the former
union members have established Article III standing
to challenge the constitutionality of the WDEA. They
have alleged an injury in fact (the continued
withholding of union dues from their wages). That
injury fairly traces to the challenged WDEA
provisions, which directed the continued dues
deductions. And the favorable judicial decision sought
by the former union members – which would void both
the WDEA and their membership agreements – would
likely redress their injury by allowing recovery of the
withheld union dues.

App-32
II.
In reaching a contrary result, the Majority
overextends its standing analysis to consider the
merits of the former union members’ claims. It
evaluates the validity of their membership
agreements and finds no infirmity. From there, the
Majority reasons that the former union members lack
Article III standing to challenge the WDEA.
The problem with that reasoning is that it
hybridizes a threshold standing inquiry and a full
merits review. Only by analyzing the merits of one
claim does the Majority find a lack of standing for the
other. That is improper. See Whitmore v. Arkansas,
495 U.S. 149, 155 (1990) (“Our threshold inquiry into
standing ‘in no way depends on the merits of the
[petitioner’s] contention that particular conduct is
illegal.’ ” (alteration in original) (quoting Warth v.
Seldin, 422 U.S. 490, 500 (1975))); see also Cottrell,
874 F.3d at 162 (“[W]e separate our standing inquiry
from any assessment of the merits of the plaintiff’s
claim.”); Pitt News, 215 F.3d at 361 n.4 (“A party may
demonstrate standing to litigate a claim even if they
fail to make out a constitutional violation on the
merits.”). Standing for both claims should be
evaluated before considering the merits of either.
Doing so here yields the result that the former union
members have standing for both their dues-recovery
claims and their challenges to the WDEA.
But that does not mean that the Majority’s
underlying analysis has no role in resolving this case.
Its reasoning, which accounts for the failed challenges

App-33
to the membership agreements, belongs in the merits
phase – not as part of the standing inquiry.
When an injury has multiple sufficient causes, the
failure of one claim may bear on the appropriateness
of relief for the other(s). For instance, if one cause of
the injury is upheld as legal, then the challenge to the
remaining cause(s) may lose the “sufficient immediacy
and reality [needed] to warrant the issuance of a
declaratory judgment.” MedImmune, Inc. v.
Genentech, Inc., 549 U.S. 118, 127, 127 (2007) (quoting
Md. Cas. Co. v. Pac. Coal & Oil Co., 312 U.S. 270, 273
(1941)). That is so here. Because the former union
members’ constitutional challenges to their
membership agreements fail, they cannot recover the
withheld dues: those dues were deducted under the
now-upheld terms of the membership agreements. It
may still be that the WDEA is unconstitutional, but
after rejecting the membership-agreement challenges
on the merits, the issue of the constitutionality of the
WDEA has lost the immediacy and reality needed for
declaratory relief. Nor would successful challenges to
the constitutionality of the WDEA prevent an
irreparable injury here – especially after the
membership agreements have been found licit – and
thus this situation does not warrant “the strong
medicine of [an] injunction.” Steffel v. Thompson, 415
U.S. 452, 466 (1974).
***
In sum, I believe that the former union members
have Article III standing for their challenges to the
WDEA. But because I agree with the Majority’s

App-34
rejection of the former union members’ challenges to
their membership agreements, I concur in the
judgment because neither declaratory nor injunctive
relief is appropriate for their challenges to the WDEA.

App-35
Appendix B
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEW JERSEY
CAMDEN VICINAGE
ANN SMTIH,
LEONARDO SANTIAGO,
MICHAEL C. SANBERG,
KARL HENDENBERG,
MELISSA H. POULSON,
RACHEL CURCIO

*
*
*
*
* Filed: 11/27/2019
*
*
Plaintiffs,
* CivilNo. 18-10381
* (RMB/KMW)
v.
*
*
NEW JERSEY EDUCATION *
ASSOCIATION, NATIONAL
*
EDUCATION ASSOCIATION, *
CLEARVIEW EDUCATION
*
ASSOCIATION, HARRISON
*
TOWNSHIP EDUCATION
*
ASSOCIATION, KINGSWAY *
EDUCATION ASSOCIATION, *
CLEARVIEW REGIONAL
*
HIGH SCHOOL, DISTRICT
*
BOARD OF EDUCATION,
*
PHIL MURPHY,
*
JOEL M. WIESBLATT,
*
PAUL BOUDREAU,
*
PAULA V. VOOS,
*

App-36
JOHN BONANNI,
DAVID JONES,

*
*
*
Defendants.
*
_____________________________________
SUSAN FISCHER AND
JEANETTE SPECK,
on behalf of Themselves
and those similarly situated,

*
*
*
Plaintiffs,
* CivilNo. 18-15628
* (RMB/KMW)
v.
*
* OPINION
PHIL MURPHY, in his official *
capacity as Governor of
*
New Jersey; NEW JERSEY
*
EDUCATION ASSOCIATION; *
TOWNSHIP OF OCEAN
*
EDUCATION ASSOCIATION, *
*
Defendants.
*
RENÉE MARIE
DISTRICT JUDGE:

BUMB,

UNITED

STATES

These actions are brought in the wake of the United
States Supreme Court’s decision in Janus v.
AFSCME, Council 31, et al., 138 S. Ct. 2448 (2018),
which held that public sector unions could no longer
deduct compulsory “fair share” agency fees from non-

App-37
consenting employees. In both matters presently
before this Court, Plaintiffs filed putative class action
complaints against the Union Defendants and
Governor Phil Murphy, in his official capacity (the
“State Defendant”), seeking monetary and injunctive
relief under 42 U.S.C. § 1983 for alleged First
Amendment violations.
Plaintiffs in these cases, Susan Fischer, Jeanette
Speck, Leonardo Santiago, Michael C. Sandberg,
Melissa H. Poulson, and Rachel Curcio (the “Member
Plaintiffs”) are current or former New Jersey public
school teachers who, following Janus, expressed
objections to continued payment of membership dues
to various local affiliates of the New Jersey Education
Association (“NJEA”) and the National Education
Association (“NEA”)(collectively, with the local
affiliates, the “Union Defendants”). The Member
Plaintiffs argue that their union dues authorization
forms, which were signed before the Janus decision,
are invalid, and were not “freely given,” because
employees were not afforded the option to abstain
from paying any fees to the unions. Plaintiffs contend
that, previously, employees were given an illusory
choice between paying full union dues (with all
privileges of union membership) or paying an 85percent “fair share” representation fee (without the
privileges of union membership).
The Member Plaintiffs also argue that the First
Amendment gives member employees a right to
withdraw from the union, and revoke union dues
authorization at any given time, without restriction.

App-38
On that point, the Member Plaintiffs argue that the
revocation requirements set forth in N.J.S.A. § 52:1415.9e, as recently amended by the Workplace
Democracy Enhancement Act, P.L.2018, C.15, § 6, eff.
May 18, 2018 (the “WDEA”), unconstitutionally
restrict employees’ First Amendment rights.
Meanwhile, Plaintiffs Ann Smith and Karl
Hedenberg (the “Non-Member Plaintiffs”) are
teachers who never joined the union for ideological
reasons and now seek a refund of agency fees paid
prior to the Janus decision. The Smith Plaintiffs also
asserted claims against the members of the New
Jersey Public Employee Relations Commission (the
“PERC Defendants”) and the Clearview Regional
High School District Board of Education (the
“Clearview BOE”).
These matters, which involve substantially similar
issues, now come before the Court upon various
motions and cross-motions. Ultimately, this Court
finds that the union dues authorizations, signed by
Plaintiffs, were valid and enforceable contracts.
Additionally, because the Union Defendants’
deduction of representation fees from non-member
employees was conducted in good-faith reliance on the
Supreme Court decision overruled by Janus, Abood v.
Detroit Bd. Of Ed., 431 U.S. 209 (1977), the Court
declines to order retrospective monetary relief.
For the reasons outlined herein, the Motions for
Summary Judgment, filed by the Smith Plaintiffs

App-39
[Civ. No. 18-10381, Dkt. No. 160] and the Fischer
Plaintiffs [Civ. No. 18-15628, Dkt. No. 38], will be
DENIED, and the Cross-Motions for Summary
Judgment, filed by the Union Defendants [Civ. No. 1810381, Dkt. No. 171; Civ. No. 18-15628, Dkt. No. 40],
the State Defendant [Civ. No. 18-10381, Dkt. No. 173;
Civ. No. 18-15628, Dkt. No. 41], will be GRANTED.
The Motion for Judgment on the Pleadings by the
Clearview BOE [Civ. No. 18-10381, Dkt. No. 166] and
the Motion to Dismiss by the PERC Defendants [Civ.
No. 18-10381, Dkt. No. 169] will also be GRANTED.
Additionally, the Fischer Plaintiffs’ Motion for Class
Certification [Civ. No. 18-15628, Dkt. No. 39] will be
DENIED, as moot.
I. FACTUAL BACKGROUND
Upon commencement of their employment in the
New Jersey public school system, Plaintiffs in this
case were offered two options: (1) elect to join the
NJEA-NEA and pay full union dues, which afforded
full rights and privileges of union membership (such
as voting rights, life insurance, and other discounts),
or (2) abstain from union membership, but pay a
compulsory “agency fee” of approximately 85% of full
union dues, without most of the rights and privileges
of union membership. Given these choices, not
surprisingly, the Member Plaintiffs each opted for
union membership and signed a “NJEA-NEA Active
Membership Application,” which authorized the
payment of full union dues through automatic payroll
deductions (the “Union Dues Authorization Form”). In
these Union Dues Authorization Forms, the Member

App-40
Plaintiffs agreed as follows:
This authorization may be terminated only by
prior written notice from me effective January 1
or July 1 of any year.
See Smith Pls.’ Union Dues Authorizations [Civ. No.
18-10381, Dkt. No. 140-5]; Fischer Pls.’ Union Dues
Authorizations [Civ. No. 18-15628, Dkt. No. 38-3 at 5
and Dkt. No. 38-3 at 6]. On the other hand, the NonMember Plaintiffs, Ms. Smith and Mr. Hedenberg,
chose to forgo the benefits of union membership,
instead paying the compulsory agency fee.
A. The Workplace Democracy Enhancement Act
Prior to May 2018, the revocation language used in
the Union Dues Authorization Forms paralleled the
language in § 52:14-15.9e of the New Jersey
Employer-Employee Relations Act, N.J.S.A. § 34:13A1, et seq., which provided that:
Any such written authorization may be
withdrawn by such person holding employment
at any time by the filing of notice of such
withdrawal
with
the
above-mentioned
disbursing office. The filing of notice of
withdrawal shall be effective to halt deductions
as of the January 1 or July 1 next succeeding the
date on which notice of withdrawal is filed.
Id. However, on May 18, 2018, New Jersey Governor
Phil Murphy signed into law the Workplace
Democracy Enhancement Act, P.L.2018, C.15, § 6, eff.
May 18, 2018, which amended N.J.S.A. § 52:14-15.9e

App-41
by striking the prior revocation language and
replacing it with the following:
Employees who have authorized the payroll
deduction of fees to employee organizations
may revoke such authorizations by providing
written notice to the public employer during the
10 days following each anniversary date of their
employment. Within five days of receipt of
notice from an employee of revocation of
authorization for the payroll deduction of fees,
the public employer shall provide notice to the
employee organization of an employee’s
revocation of such authorization. An employee’s
notice of revocation of authorization for the
payroll deduction of employee organization fees
shall be effective on the 30th day after the
anniversary date of employment.
N.J.S.A. § 52:14-15.9e (as amended by the WDEA).
The WDEA itself does not clarify what impact this
new language has on employees who signed Union
Dues Authorization Forms that contained the
language with two opt-out dates.
B. The Janus Decision
One June 27, 2018, the United States Supreme
Court issued its decision in Janus, holding that
“States and public-sector unions may no longer
extract agency fees from nonconsenting employees.”
Janus, 138 S.Ct. at 2486.

App-42
In doing so, the Court overturned forty-year-old
precedent from Abood, which permitted public sector
unions to compel agency fees from non-member
employees for costs “germane” to collective
bargaining, so long as non-members were not forced
to contribute to political or ideological causes. See
Abood, 431 U.S. at 235-36. The Court explained that
the framework set forth in Abood failed to appreciate
the inherently political nature of public sector
collective bargaining and “violate[d] the free speech
rights of nonmembers by compelling them to subsidize
private speech on matters of substantial public
concern.” Janus, 138 S.Ct. at 2460. Moving forward,
the Court stated as follows:
Neither an agency fee nor any other payment to
the union may be deducted from a nonmember’s
wages, nor may any other attempt be made to
collect such a payment, unless the employee
affirmatively consents to pay. By agreeing to pay,
nonmembers are waiving their First Amendment
rights, and such a waiver cannot be presumed.
Johnson v. Zerbst, 304 U.S. 458, 464, 58 S.Ct.
1019, 82 L.Ed. 1461 (1938); see also Knox [v.
Service Employees Intern. Union, Local 1000], 567
U.S., at 312–313, 132 S.Ct. 2277. Rather, to be
effective, the waiver must be freely given and
shown by “clear and compelling” evidence. Curtis
Publishing Co. v. Butts, 388 U.S. 130, 145, 87 S.Ct.
1975, 18 L.Ed.2d 1094 (1967) (plurality opinion);
see also College Savings Bank v. Florida Prepaid
Postsecondary Ed. Expense Bd., 527 U.S. 666,

App-43
680–682, 119 S.Ct. 2219, 144 L.Ed.2d 605 (1999).
Unless employees clearly and affirmatively
consent before any money is taken from them, this
standard cannot be met.
Janus, 138 S. Ct. at 2486.
C. Post-Janus Resignation and Refund Requests
Following Janus, a number of the Member Plaintiffs
informed the Union Defendants that they wished to
resign their union membership and cease dues
deductions, effective immediately.
On June 28, 2018, Plaintiff Michael C. Sandberg
emailed his union representative and requested the
immediate cessation of dues deductions. Although his
Union Dues Authorization Form entitled him to optout effective July 1st, the union instead attempted to
dissuade Mr. Sandberg from resigning his
membership before inquiring about the anniversary of
his date of hire. Mr. Sandberg’s union dues continued
to be deducted until the end of September 2018. The
Union Defendants contend that the continued
deduction of Mr. Sandberg’s dues after his written
notice was an oversight1 and that all dues deducted
from July 1st through October 2018 have been
refunded, with interest.

The Union Defendants state that Mr. Sandberg’s revocation
was mistakenly registered as being received on July 10, 2018, the
date he sent a follow-up email to the union representative
inquiring about the status of his opt-out request.
1

App-44
Plaintiff Melissa H. Poulson also expressed her
desire to resign from the union on June 28, 2018, but
did so through a telephone call to her union
representative, rather than in writing. The Union
states that it rejected this telephone resignation
because it was not in writing, as required by the terms
of the Union Dues Authorization Form. Ms. Poulson’s
union dues were deducted through the end of
September 2018, which was approximately thirty
days after the anniversary of her date of hire
(September 1, 2003). The Union Defendants state that
they accepted Ms. Poulson’s inclusion in the Second
Amended Smith Complaint [Civ. No. 18-10381, Dkt.
No. 43], which was filed on July 24, 2018, as written
notice of her intent to resign, even though it was not
submitted during the 10-day window following the
anniversary of her date of hire.
In mid-July 2018, Plaintiffs Susan Fischer and
Jeanette Speck notified the Union Defendants, in
writing, of their desire to resign from the union and
halt dues. However, because these notices were
provided after the July 1st opt-out date, Ms. Fischer
and Ms. Speck were informed that their next
opportunity to resign would be thirty days after the
anniversary of their dates of hire by submitting a new
notice, in writing, during the 10 day period following
the anniversary of their date of hire. Ms. Fischer and
Ms. Speck followed the outlined procedures and dues
deductions were halted in October 2018.
Plaintiff Leonardo Santiago notified his union
representative, in writing, of his decision to resign

App-45
from the union on August 8, 2018. Finding that Mr.
Santiago’s notice was too late for the July 1st
revocation date, the union ceased dues deductions at
the end of September 2018. By ceasing deductions
thirty days after the anniversary of Mr. Santiago’s
date of hire, even though Mr. Santiago had not filed a
new notice during the WDEA’s 10-day revocation
period, the Union Defendants state that Mr. Santiago
benefited from an earlier opt-out date than he
otherwise would have been entitled to under the
terms of his Union Dues Authorization Form.
As stated in the Fifth Amended Smith Complaint
[Civ. No. 18-10381, Dkt. No. 140], Plaintiff Rachel
Curcio has never submitted written notice of her
intent to resign from the union, despite her desire “to
legally and legitimately quit paying dues to NJEA and
NEA.” To this Court’s knowledge, Ms. Curcio
continues to pay full union dues. Somewhat
inconsistently, it does not seem that the Union
Defendants have interpreted Ms. Curcio’s inclusion in
this case as written notice of her intent to resign from
the union, as was done for Ms. Poulson. It appears
that Ms. Curcio’s position is that no opt-out is
necessary, since the union should have sought her
affirmative consent to continue collecting dues postJanus.
Unlike the other Plaintiffs, who were full-fledged
union members, Plaintiffs Ann Smith and Karl
Hedenberg never joined the union. Instead,
throughout their employment, Ms. Smith and Mr.
Hedenberg paid the approximately 85% agency fee.

App-46
Following the Janus decision, the union halted any
further deduction of agency fees from non-member
employees, such as Ms. Smith and Mr. Hedenberg.
Because the agency fees were deducted from the NonMember Plaintiffs’ salaries without their affirmative
consent, they now seek a refund of all pre-Janus
agency fees.
D.

Application
Deductions

and

Enforcement

of

Dues

In addition to Plaintiffs’ overarching constitutional
challenges to the WDEA and the validity of pre-Janus
consent, the Smith Plaintiffs assert a claim against
the Clearview BOE for continuing to deduct union
dues from employees who had signed pre-Janus Union
Dues Authorization Forms, but had not provided new
“affirmative consent” authorizations, post-Janus. The
Smith Plaintiffs also bring claims against the PERC
Defendants for instructing employers to comply with
the WDEA and for issuing orders preventing
employers from soliciting post-Janus union dues
authorizations from employees.
II. LEGAL STANDARD
Summary judgment shall be granted if “the movant
shows that there is no genuine dispute as to any
material fact and the movant is entitled to judgment
as a matter of law.” Fed. R. Civ. P. 56(a). A fact is
“material” only if it might impact the “outcome of the
suit under the governing law.” Gonzalez v. Sec’y of
Dept of Homeland Sec., 678 F.3d 254, 261 (3d Cir.
2012). A dispute is “genuine” if the evidence would

App-47
allow a reasonable jury to find for the nonmoving
party. Id.
In determining the existence of a genuine dispute of
material fact, a court’s role is not to weigh the
evidence; all reasonable inferences and doubts should
be resolved in favor of the nonmoving party. Melrose,
Inc. v. City of Pittsburgh, 613 F.3d 380, 387 (3d Cir.
2010). However, a mere “scintilla of evidence,”
without more, will not give rise to a genuine dispute
for trial. Saldana v. Kmart Corp., 260 F.3d 228, 232
(3d Cir. 2001). Moreover, a court need not adopt the
version of facts asserted by the nonmoving party if
those facts are “utterly discredited by the record [so]
that no reasonable jury” could believe them. Scott v.
Harris, 550 U.S. 372, 380 (2007). In the face of such
evidence, summary judgment is still appropriate
“where the record taken as a whole could not lead a
rational trier of fact to find for the nonmoving party.”
Walsh v. Krantz, 386 F.App’x 334, 338 (3d Cir. 2010).
The movant has the initial burden of showing
through the pleadings, depositions, answers to
interrogatories, admissions on file, and any affidavits
“that the non-movant has failed to establish one or
more essential elements of its case.” Connection
Training Servs. v. City of Phila., 358 F. App’x 315, 318
(3d Cir. 2009). “If the moving party meets its burden,
the burden then shifts to the non-movant to establish
that summary judgment is inappropriate.” Id. In the
face of a properly supported motion for summary
judgment, the nonmovant’s burden is rigorous: he
“must point to concrete evidence in the record”; mere

App-48
allegations, conclusions, conjecture, and speculation
will not defeat summary judgment. Orsatti v. New
Jersey State Police, 71 F.3d 480, 484 (3d Cir. 1995);
accord. Jackson v. Danberg, 594 F.3d 210, 227 (3d Cir.
2010) (citing Acumed LLC. v. Advanced Surgical
Servs., Inc., 561 F.3d 199, 228 (3d Cir.
2009)(“[S]peculation and conjecture may not defeat
summary judgment.”). Moreover, “the court need only
determine if the nonmoving party can produce
admissible evidence regarding a disputed issue of
material fact at trial”; the evidence does not need to
be in admissible form at the time of summary
judgment. FOP v. City of Camden, 842 F.3d 231, 238
(3d Cir. 2016).
III. ANALYSIS
In both matters presently before the Court,
Plaintiffs argue that (1) Union Dues Authorization
Forms signed before the Janus decision are invalid, (2)
the First Amendment gives employees a right to
resign union membership and cease paying dues
without any temporal restrictions, and (3) the
revocation language in the WDEA is unconstitutional.
This Court disagrees with Plaintiff on the first two
points. Although the Court agrees that the revocation
language in the WDEA is unduly restrictive and,
therefore, unconstitutional, the Court finds that
Plaintiffs have failed to establish standing to
challenge the WDEA, because it has never been
enforced against them to their detriment.

App-49
A. Validity of Pre-Janus Authorizations
Although the Member Plaintiffs acknowledge that
they signed Union Dues Authorization Forms at the
commencement of their employment, Plaintiffs claim
that these authorizations are invalid because they
were obtained before Janus clarified their rights to
abstain from paying any dues to the union. Unlike Mr.
Janus, who was an agency fee paying non-member
who never agreed to any dues deduction, the Member
Plaintiffs all voluntarily agreed to union membership,
with full deduction of dues. However, Plaintiffs argue
that the Union Authorization Dues Forms must now
be considered involuntary, because Plaintiffs could
not have freely and knowingly waived a right that
they did not know they had (the right to avoid paying
union fees as a non-member, as Janus now holds).
This argument fails as a matter of law, because
“changes in intervening law – even constitutional law
– do not invalidate a contract.” Smith v. Bieker, 2019
WL 2476679, at *2 (N.D. Cal. June 13, 2019)(citing
Brady v. United States, 397 U.S. 742, 757, (1970)); see
also Oliver v. Serv. Employees Int’l Union Local 668,
2019 WL 5964778, at *3 (E.D. Pa. Nov. 12, 2019) (a
“subsequent change in the law does not permit a party
to a contract who has enjoyed the benefit of the
bargain to rescind it with the benefit of hindsight”)
(citing Coltec Industries, Inc. v. Hobgood, 280 F.3d
262, 274-75 (3d Cir. 2002)).
The Janus decision may have established a more
appealing alternative for Plaintiffs than what existed
under the Abood framework, but the existence of a

App-50
better alternative does not invalidate prior signed
contracts. Indeed, District Courts around the country
have already rejected similar claims, finding that the
fact that union members “voluntarily chose to pay
membership dues in exchange for certain benefits,
and ‘[t]he fact that plaintiffs would not have opted to
pay union membership fees if Janus had been the law
at the time of their decision does not mean their
decision was therefore coerced.’ ” Babb v. California
Teachers Ass’n, 378 F. Supp. 3d 857, 877 (C.D. Cal.
2019)(quoting Crockett v. NEA-Alaska, 367 F. Supp.
3d 996, 1007–09 (D. Alaska 2019)); see also Belgau v.
Inslee, 2018 WL 4931602, at *5 (W.D. Wash. Oct. 11,
2018)(“Plaintiffs’ assertions that they didn’t
knowingly give up their First Amendment rights
before Janus rings hollow. Janus says nothing about
people [who] join a Union, agree to pay dues, and then
later change their mind about paying union dues.”);
O’Callaghan v. Regents of the Univ. of Cal., 2019 WL
2635585, at *3 (C.D. Cal. June 10, 2019)(“[N]othing in
Janus’s holding requires unions to cease deductions
for individuals who have affirmatively chosen to
become union members and accept the terms of a
contract that may limit their ability to revoke
authorized dues-deductions in exchange for union
membership rights, such as voting, merely because
they later decide to resign membership.”). Plaintiffs
have a right to resign from the union and cease paying
union dues, but Janus does not serve to invalidate
union members’ previously signed Union Dues
Authorization Forms.

App-51
B. Post-Janus Resignation Rights
The Member Plaintiffs also argue that, in addition
to invalidating pre-Janus dues authorizations, the
Janus decision broadly gives union member
employees a right to resign their membership at any
given time. This Court finds no support for this
assertion.
As previously noted, Janus does not invalidate the
existing contractual relationships between unions and
their members. See, e.g., Smith v. Bieker, 2019 WL
2476679, at *2 (“Smith contends that Janus entitles
him to elect to stop paying dues to the union at the
drop of a hat. But Janus did not concern the
relationship of unions and members; it concerned the
relationship of unions and non-members. Besides, ‘the
First Amendment does not confer ... a constitutional
right to disregard promises that would otherwise be
enforced under state law’ ”)(quoting Cohen v. Cowles
Media Co., 501 U.S. 663, 672 (1991)).
The Member Plaintiffs in these matters all agreed to
be bound by authorization agreements that set forth
an opt-out procedure (prior written notice) with two
available resignation dates (January 1st and July 1st
of each year). It is possible that unreasonably
restrictive or burdensome opt-out procedures could be
found to impinge upon First Amendment rights, but
this is not the case here. The available resignation
procedures give union members reasonable
opportunities to exercise their First Amendment
rights to resign from the union. In fact, after the

App-52
passage of the WDEA, Plaintiffs were apparently
afforded a third possible resignation date (effective
thirty days after the employee’s anniversary of
employment). Plaintiffs, such as Ms. Curcio, may
freely resign from the union, but they must do so
under the terms of the Union Dues Authorization
Forms. Because the Member Plaintiffs’ resignations
were all processed under the terms of their
agreements, or under more advantageous terms,
Plaintiffs are not entitled to the reimbursement of
union dues deducted in the months before their union
resignations took effect.
C. Workplace Democracy Enhancement Act
Next, Plaintiffs argue that the restrictive revocation
procedure set forth in N.J.S.A. § 52:14-15.9e, as
amended by the WDEA, violates their First
Amendment rights to resign from the union. The plain
language of the revocation language in N.J.S.A. §
52:14-15.9e restricts union members to one opt-out
date per year, with a draconian requirement that
employees can only do so by submitting written notice
in a very specific 10-day window (which would be
unique to each employee). If it were enforced as
written, the Member Plaintiffs are correct that the
WDEA’s revocation procedure would, in the absence
of a contract providing additional opt-out dates and a
more reasonable notice requirement (as is present
here), unconstitutionally restrict an employee’s First
Amendment right to opt-out of a public-sector union.
However, in these cases, with discovery now closed,
the record indicates that the WDEA’s revocation

App-53
procedure was not enforced against Plaintiffs as
written. Because Plaintiffs have not established that
they suffered (or are likely to suffer) an “injury-infact,” based on the manner in which the WDEA’s
revocation procedure was enforced against them, they
lack standing to challenge its constitutionality.
The record demonstrates that neither the State
Defendant nor the Union Defendants strictly enforced
the WDEA’s revocation procedure against restrictions
against Plaintiffs. In these cases, the Union
Defendants continued to honor the multiple opt-out
dates set forth in the Union Dues Authorization
Forms. In fact, rather than using the WDEA to limit
Plaintiffs to a single opt-out opportunity, the Union
Defendants’ applied the WDEA in a way that afforded
Plaintiffs a third opt-out opportunity, in addition to
the two opportunities already available under the
terms of the Union Dues Authorization Forms. This
additional resignation date (which ended up being at
the end of September 2018), permitted Ms. Poulson,
Mr. Santiago, Ms. Fischer, and Ms. Speck to resign
their union memberships earlier than they otherwise
would have been entitled to under the previous EERA
language or the terms of the Union Dues
Authorization Forms (January 1, 2019). The Union
Defendants also did not force Ms. Poulson and Mr.
Santiago to comply with the strict terms of the
WDEA’s unreasonable 10-day notice period and,
instead, consistent with the terms of the Union Dues
Authorization Forms, only required Ms. Poulson and

App-54
Mr. Santiago to submit prior written notice of their
desire to opt-out.
Based on the record, the Member Plaintiffs cannot
establish that they have suffered (or are likely to
suffer) an “injury-in-fact” to their First Amendment
rights. “To have Article III standing, [Plaintiffs] must
first demonstrate that [they have] suffered an injuryin-fact. This injury must be concrete and
particularized, and actual or imminent, as opposed to
conjectural or hypothetical.” Pitt News v. Fisher, 215
F.3d 354, 360 (3d Cir. 2000) (citing Lujan v. Defenders
of Wildlife, 504 U.S. 555, 560, (1992)). If Plaintiffs
demonstrated that State Defendant or the Union
Defendants were using the WDEA’s revocation
language to override and narrow contractually agreed
upon resignation rights, such enforcement would
certainly have established an injury.2 However, no
such circumstances existed in these matters. Here,
the Union Defendants used the WDEA’s newly
created opt-out date to supplement, rather than
In this case, this Court need not determine the precise
parameters of a constitutionally permissible opt-out procedure.
This Court, however, would go so far as to say that, if Defendants
were to enforce the statute in the absence of additional opt-out
opportunities, the WDEA’s revocation procedure – which allows
only a single opt-out opportunity and can be taken advantage of
only through a perfectly-timed written notice – would
unconstitutionally infringe upon an employee’s First
Amendment rights. Moreover, even if the WDEA’s revocation
procedure was incorporated into a contract, such as the Union
Dues Authorization Form, it would be unconstitutional if it were
the public employee’s sole method to resign membership.
2

App-55
narrow, the two opt-out dates that union members
were already entitled to under the Union Dues
Authorization Forms. As such, the Member Plaintiffs
were never harmed and, in this instance, benefited
from the manner in which the Union Defendants
applied the WDEA.3 Therefore, Plaintiffs lack Article
III standing to challenge the constitutionality of the
WDEA revocation language.
D. Refund of Agency Fees
In light of Janus, the Non-Member Plaintiffs argue
that they should be reimbursed for agency fees that
were deducted from their pay for years, without their
affirmative consent, to subsidize the unions in
violation of the First Amendment. While Plaintiffs’
arguments are well-taken, this Court finds that the
Union Defendants would prevail based upon their
good-faith belief that these agency fee deductions,
which were sanctioned by the Supreme Court in
Abood, complied with statutory and constitutional
law. Indeed, numerous federal courts, including some
within the Third Circuit, have already held that
“good-faith reliance on prior precedent defeats refund
claims in the aftermath of Janus.” Oliver, 2019 WL
5964778, at *7 (E.D. Pa. Nov. 12, 2019); see also Babb,

Although Ms. Curcio has not yet resigned from the Union, she
freely admits that she has not even tried to do so. Because the
Union Defendants and the State Defendants have, thus far, not
held union members to the strict resignation procedures outlined
in the WDEA, Ms. Curcio’s potential to suffer an “injury-in-fact”
due to the WDEA is “conjectural or hypothetical.”
3

App-56
378 F. Supp. 3d at 871-72. This Court also notes that
in Janus, the Supreme Court stated as follows:
We recognize that the loss of payments from
nonmembers may cause unions to experience
unpleasant transition costs in the short term,
and may require unions to make adjustments in
order to attract and retain members. But we
must weigh these disadvantages against the
considerable windfall that unions have received
under Abood for the past 41 years. It is hard to
estimate how many billions of dollars have been
taken from nonmembers and transferred to
public-sector unions in violation of the First
Amendment. Those unconstitutional exactions
cannot be allowed to continue indefinitely.
Janus, 138 S. Ct. at 2485–86. In noting that the
“windfall” received by unions over the past forty years
offsets the short-term adjustments and losses that
unions would experience by losing agency fee
contributions, the Supreme Court seemingly
acknowledged that unions would not be forced to
return all money collected in reliance on Abood. Thus,
the Supreme Court’s language suggests that it only
intended for Janus to apply prospectively, rather than
retroactively.
E. Clearview BOE and the PERC Defendants
Based on this Court’s findings as to the overarching
issues in this case, the claims against the Clearview
BOE and the PERC Defendants must be dismissed.
Indeed, because this Court finds that the pre-Janus

App-57
Union Dues Authorization Forms remained valid and
that Plaintiffs could not resign from the union without
temporal restrictions, the Clearview BOE did not
violate the Plaintiffs’ constitutional rights by
continuing to deduct dues and the PERC Defendants
did not violate Plaintiffs’ rights by ordering the school
districts to continue honoring the existing
authorization agreements.
IV. CONCLUSION
For the foregoing reasons, Plaintiffs’ respective
Motions for Summary Judgment [Civ. No. 18-10381,
Dkt. No. 160; Civ. No. 18-15628, Dkt. No. 38], will be
DENIED, and the Cross-Motions for Summary
Judgment, filed by the Union Defendants [Civ. No. 1810381, Dkt. No. 171; Civ. No. 18-15628, Dkt. No. 40],
the State Defendant [Civ. No. 18-10381, Dkt. No. 173;
Civ. No. 18-15628, Dkt. No. 41], will be GRANTED.
Additionally, the Motion for Judgment on the
Pleadings by the Clearview BOE [Civ. No. 18-10381,
Dkt. No. 166] and the Motion to Dismiss by the PERC
Defendants [Civ. No. 18-10381, Dkt. No. 169] will be
GRANTED. Finally, the Fischer Plaintiffs’ Motion for
Class Certification [Civ. No. 18-15628, Dkt. No. 39]
will be DENIED, as moot. Appropriate Orders shall
issue on this date.
DATED: November 27, 2019
s/Renée Marie Bumb
RENÉE MARIE BUMB
UNITED STATES DISTRICT JUDGE

App-58
Appendix C
IN THE UNITED STATES DISTRICT
COURT FOR THE DISTRICT OF
NEW JERSEY
CAMDEN VICINAGE
SUSAN FISCHER
AND JEANETTE
SPECK, on behalf of
Themselves
and those similarly
situated,

*
*
*
*
*
*
*
Plaintiffs,
* CivilNo. 18-15628
* (RMB/KMW)
v.
*
* ORDER
PHIL MURPHY,
*
in his official capacity as *
Governor of New Jersey; *
NEW JERSEY
*
EDUCATION
*
ASSOCIATION;
*
TOWNSHIP OF OCEAN *
EDUCATION
*
ASSOCIATION,
*
*
Defendants.
*
THIS MATTER comes before the Court upon
Plaintiffs Susan Fischer and Jeanette Speck’s

App-59
Motions for Partial Summary Judgment [Dkt. No. 38]
and for Class Certification [Dkt. No. 39], as well as
Cross-Motions for Summary Judgment, filed by
Defendants New Jersey Education Association and
Township of Ocean Education Association (the “Union
Defendants”)[Dkt. No. 40] and Defendant Governor
Phil Murphy, in his official capacity (the “State
Defendant”)[Dkt. No. 41]. For the reasons set forth in
the Omnibus Opinion of the same date,
IT IS, on this 27th day of November 2019, hereby
ORDERED that:
(1)
(2)
(3)
(4)
(5)
(6)

Plaintiffs’ Motion for Partial Summary
Judgment [Dkt. No. 38] is DENIED
the Union Defendants’ Cross-Motion for Partial
Summary Judgment [Dkt. No. 40] is
GRANTED;
the State Defendant’s Cross-Motion for
Summary Judgment [Dkt. No. 41] is
GRANTED;
Plaintiffs’ Motion for Class Certification [Dkt.
No. 39] is DENIED, as moot;
this matter is DISMISSED; and
the Clerk of the Court shall CLOSE this case.
s/ Renée Marie Bumb
RENÉE MARIE BUMB
UNITED STATES DISTRICT JUDGE

App-60
Appendix D
RELEVANT CONSTITUTIONAL PROVISION
AND LEGISLATIVE MATERIAL
U.S. Const., amend I
Congress shall make no law respecting an
establishment of religion, or prohibiting the free
exercise thereof; or abridging the freedom of speech,
or of the press; or the right of the people peaceably to
assemble, and to petition the Government for a
redress of grievances
New Jersey Statute Annotated Section 52:1415.9e, as amended by P.L. 2018, c. 15, § 6,
eff. May 18, 2018
Whenever any person holding employment, whose
compensation is paid by this State or by any county,
municipality, board of education or authority in this
State, or by any board, body, agency or commission
thereof shall indicate in writing, including by
electronic communications, and which writing or
communication may be evidenced by the electronic
signature of the employee, as the term electronic
signature is defined in section 2 of P.L.2001, c. 116
(C.12A:12-2), to the proper disbursing officer his
desire to have any deductions made from his
compensation, for the purpose of paying the
employee’s dues to a bona fide employee organization,
designated by the employee in such request, and of
which said employee is a member, such disbursing

App-61
officer shall make such deduction from the
compensation of such person and such disbursing
officer shall transmit the sum so deducted to the
employee organization designated by the employee in
such request.
Employees who have authorized the payroll
deduction of fees to employee organizations may
revoke such authorization by providing written notice
to their public employer during the 10 days following
each anniversary date of their employment. Within
five days of receipt of notice from an employee of
revocation of authorization for the payroll deduction
of fees, the public employer shall provide notice to the
employee organization of an employee’s revocation of
such authorization. An employee’s notice of revocation
of authorization for the payroll deduction of employee
organization fees shall be effective on the 30th day
after the anniversary date of employment.
Nothing herein shall preclude a public employer and
a duly certified majority representative from entering
into a collectively negotiated written agreement which
provides that employees included in the negotiating
unit may only request deduction for the payment of
dues to the duly certified majority representative.
Such collectively negotiated agreement may include a
provision that existing written authorizations for
payment of dues to an employee organization other
than the duly certified majority representative be
terminated. Such collectively negotiated agreement
may also include a provision specifying the effective
date of a termination in deductions as of the July 1
next succeeding the date on which notice of

App-62
withdrawal is filed by an employee with the public
employer’s disbursing officer.
This authorization for negotiation of exclusive dues
deduction provisions shall not apply to any
negotiating unit which includes employees of any local
school district or county college.
As used in this section, dues shall mean all moneys
required to be paid by the employee as a condition of
membership in an employee organization and any
voluntary employee contribution to a committee or
fund established by such organization, including but
not limited to welfare funds, political action
committees, charity funds, legal defense funds,
educational funds, and funds for donations to schools,
colleges, and universities.

